               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Trends and Systemic Issues in
       Defense Contract Audit Agency
        Audit Work for Fiscal Years
                2009-2012

         Management Advisory Report




                                              March 15, 2013

Report Number SM-MA-13-002
                                                                        March 15, 2013

                                            Trends and Systemic Issues in Defense
                                                            Contract Audit Agency
                                             Audit Work for Fiscal Years 2009-2012

                                                       Report Number SM-MA-13-002


BACKGROUND:
In fiscal year (FY) 1999, the U.S. Postal   consistently contributed to significant
Service Office of Inspector General         savings and averaged a return on
(OIG) entered into an agreement with        investment of $105 for every dollar
the Defense Contract Audit Agency           spent over the last 4 fiscal years.
(DCAA) to conduct contract audits on its
behalf. This partnership benefits U.S.      During FYs 2009-2012, DCAA audits
Postal Service contracting officials by     identified more than $185 million in
arming them with audit reports to help      unallowable and unsupported contract
make informed choices when                  costs; and disclosed internal control
negotiating and managing contracts.         weaknesses related to contractors'
                                            accounting systems, financial
Our objective was to identify contracting   capabilities, and labor charges. These
trends and issues in FY 2009-2012           results assisted contracting officials in
DCAA audit reports that presented           negotiating lower contract prices and
opportunities for improvement and           settlements.
future benefits for the Postal Service.
                                            WHAT THE OIG RECOMMENDED:
WHAT THE OIG FOUND:                         We recommended management
The Postal Service reduced its use of       emphasize to contracting officials the
DCAA to conduct audits to support           importance of requesting DCAA audits
contracting actions from 23 audits in FY    to support decisions in awarding and
FY 2009 to just 11 audits in FY 2012.       managing contracts.
This reduction was due to concerns
related to DCAA’s audit quality and         Link to review the entire report
timeliness. In February 2010, we began
implementing quality assurance
procedures to address these concerns
and continue to work with DCAA to
minimize any potential delays. In
addition, we are collaborating with
Postal Service officials to enhance the
process for requesting DCAA audits.

DCAA audits are cost-effective tools that
help Postal Service contracting officials
negotiate lower contract costs and
manage contracts. These audits have
March 15, 2013

MEMORANDUM FOR:            SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT

                                  E-Signed by Michael A. Magalski
                               VERIFY authenticity with eSign Desktop


FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations


SUBJECT:                   Management Advisory Report – Trends and Systemic Issues
                           in Defense Contract Audit Agency Audit Work for Fiscal
                           Years 2009-2012 (Report Number SM-MA-13-002)

This report presents the results of our analysis of Trends and Systemic Issues in
Defense Contract Audit Agency Audit Work for Fiscal Years 2009-2012 (Project Number
12YG041CA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique P. Colter, director,
Supply Management and Facilities, or me at 703-248-2100.

Attachments

cc:   Joseph Corbett
      Trent K. Ensley
      Robert D. D’Orso
      Susan A. Witt
      Corporate Audit and Response Management
Trends and Systemic Issues in Defense Contract Audit                                                              SM-MA-13-002
 Agency Audit Work for Fiscal Years 2009-2012




                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Reduction in DCAA Audits .............................................................................................. 1

Cost-Effective Audit Tools ............................................................................................... 2

Fiscal Years 2009-2012 Summary of Key Defense Contract Audit Agency Issues ......... 3

   Price Proposal Reviews ............................................................................................... 3

   Termination and Equitable Adjustments ...................................................................... 4

   Reviews of Systems, Financial Capability, and Labor Floor Checks ........................... 5

Recommendation ............................................................................................................ 7

Management’s Comments .............................................................................................. 7

Evaluation of Management’s Comments ......................................................................... 8

Appendix A: Additional Information ................................................................................. 9

   Background ................................................................................................................. 9

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................... 9

Appendix B: Defense Contract Audit Agency Audit Reports Issued from Fiscal

   Years 2009-2012....................................................................................................... 10

Appendix C: Management's Comments ........................................................................ 12
Trends and Systemic Issues in Defense Contract Audit
 Agency Audit Work for Fiscal Years 2009-2012                                   SM-MA-13-002




Introduction

This report presents the results of our analysis of Defense Contract Audit Agency
(DCAA) audit reports for fiscal years (FY) 2009-2012 (Project Number
12YG041CA000). Our objective was to identify contracting trends and issues found in
prior DCAA audit reports that presented opportunities for improvement and future
benefits for U.S. Postal Service officials. This self-initiated review addresses operational
risk.

In FY 1999, the U.S. Postal Service Office of Inspector General (OIG) entered into an
agreement with the DCAA to conduct contract audits on its behalf. This partnership
benefits Postal Service contracting officials by arming them with audit reports that help
them make informed choices in negotiating contracts and claims and providing valuable
insight into contractors’ business practices. See Appendix A for additional information
about this audit.

Conclusion

The Postal Service reduced its use of DCAA to conduct audits to support contracting
actions from 23 audits in FY 2009 to just 11 audits in FY 2012. This reduction was due
to concerns related to DCAA’s audit quality and timeliness. In February 2010, we began
implementing quality assurance procedures to address these concerns and we will
continue to work with DCAA to minimize any potential delays. In addition, we are
collaborating with Postal Service officials to enhance the process for requesting DCAA
audits.

DCAA audits are cost-effective tools that help Postal Service contracting officials
negotiate lower contract costs and manage contracts. These audits have consistently
contributed to significant savings and averaged a return on investment of $105 for every
dollar spent over the last 4 fiscal years. During FYs 2009-2012, DCAA audits identified
more than $185 million in unallowable and unsupported contract costs. They also
disclosed internal control weaknesses related to contractors' accounting systems,
financial capabilities, and labor charges. These results assisted contracting officials in
negotiating lower contract prices and settlements.

Reduction in DCAA Audits

The number of DCAA audits has declined substantially, from 23 audits in FY 2009 to 11
in FY 2012, a decrease of 52 percent (see Table 1).




                                                   1
Trends and Systemic Issues in Defense Contract Audit                                                  SM-MA-13-002
 Agency Audit Work for Fiscal Years 2009-2012


                    Table 1. DCAA Audits Requested from FYs 2007–2012

                                                         Number of DCAA
                                                             Audits
                                 Fiscal Year               Requested
                                    2007                      21
                                    2008                      29
                                    2009                      23
                                    2010                      13
                                    2011                      11
                                    2012                      11
                             Source: OIG analysis 2007-2012.

We may be able to attribute some of this decline, especially in the case of proposal
audit requests, to a decrease in Postal Service spending. However, management
indicated they did not strongly pursue additional DCAA audit requests during this period
because of concerns regarding DCAA’s audit quality1 and timeliness. In February 2010,
the OIG began implementing procedures to address these concerns, including
incorporating a quality assurance review of statistically selected DCAA audits. The OIG
also continues to work with a DCAA representative to minimize any potential delays in
completing these audits. In addition, the Postal Service is currently working to update
the DCAA portion of the Supply Management website and improve the DCAA audit
request process and report timeliness.

Cost-Effective Audit Tools

DCAA audits are cost-effective tools that help Postal Service contracting officials
negotiate lower contract costs and manage contracts. These audits have consistently
contributed to significant savings and averaged a return of $105 for every dollar spent
over the last 4 fiscal years. During FYs 2009-2012, DCAA audits identified more than
$185 million in unallowable and unsupported contract costs due to reviews of price
proposals, termination claims, and equitable adjustments. They also disclosed internal
control weaknesses related to contractors' accounting systems, financial capabilities,
and labor charges. These results assisted contracting officials in negotiating lower
contract prices and settlements.




1
 DCAA Audits: Widespread Problems with Audit Quality Require Significant Reform (Government Accountability
Office (GAO), Report Number GAO-09-468, dated September 23, 2009), found audit quality problems at DCAA
offices nationwide, including compromise of auditor independence, insufficient audit testing, and inadequate planning
and supervision.

                                                          2
Trends and Systemic Issues in Defense Contract Audit                                                   SM-MA-13-002
 Agency Audit Work for Fiscal Years 2009-2012



Fiscal Years 2009-2012 Summary of Key Defense Contract Audit Agency Issues

Price Proposal Reviews

DCAA reviews of 12 price proposals2 identified unallowable and unsupported costs
totaling $181,204,699, or 24 percent of the $757,873,923 proposed costs. DCAA noted
that $27,480,874 of unallowable costs in 11 of the 12 price proposals were due to:

   Prime contractors not considering reductions in proposed subcontractor costs that
    are likely to be achieved during negotiations with subcontractors, based on
    experience.

   Use of outdated vendor quotes for proposed material costs.

   Use of inaccurate labor hours and rates.

   Use of inaccurate overhead rates.3

Six of the 12 proposals contained $153,723,825 in unsupported costs primarily because
the contractor did not provide adequate supporting documentation for subcontractor
costs, direct material, and overhead rates. A recently issued OIG report4 expressed
concerns about contractors not providing adequate documentation and cost or price
analyses during the contract evaluation process. According to Postal Service
requirements, 5 contracting officers (COs) should ensure that contractors provide
adequate cost or pricing data to support their proposals. Without adequate cost or
pricing data, the Postal Service may not establish a fair and reasonable contract price.

We reviewed audit follow-up documentation for the three price proposals with the
highest questioned costs and determined the Postal Service was able to negotiate a
lower price based on the DCAA reviews.

   One price proposal disclosed unallowable costs of $10.9 million and
    unsupported costs of $143.5 million. The CO was able to negotiate the proposed
    price of $382.1 million down to a negotiated final price of $346.8 million, for a
    savings of $35.3 million.6


2
  DCAA reviewed 14 price proposals from FYs 2009-2012; however, only 12 price proposal reviews identified
unallowable or unsupported costs. DCAA did not express an opinion in one report because the contractor did not
provide an adequate proposal for review or a basis for the proposed cost. In another report, DCAA provided a
technical analysis with no questioned or unsupported costs.
3
  Overhead rates consist primarily of material handling, indirect labor, and general and administrative expense rates.
4
  Best Value in the Purchasing Process (Report Number CA-AR-13-001, dated October 9, 2012).
5
  Supplying Principles and Practices (SP&P), Section 2-34.13, Cost or Pricing Data.
6
  The original proposal, dated October 28, 2010, totaled $404,219,624. However, DCAA performed an audit on the
revised proposal amount of $382,149,221, dated May 16, 2011. Therefore, we are basing the Postal Service’s
negotiated savings on the proposed amount that DCAA reviewed.

                                                           3
Trends and Systemic Issues in Defense Contract Audit                                                  SM-MA-13-002
 Agency Audit Work for Fiscal Years 2009-2012


   Another price proposal contained unallowable costs of $3.9 million. Based on the
    DCAA findings, the CO negotiated the original proposed price of $49.8 million down
    to a final negotiated price of $47.1 million, for a savings of $2.7 million.

   For a price proposal containing $6.2 million in unallowable costs, the Postal Service
    later cancelled negotiations and issued a separate solicitation, which it subsequently
    placed on hold indefinitely.

Termination and Equitable Adjustments

DCAA reviews of two terminations and three equitable adjustment 7 claims disclosed
unallowable costs totaling about $3.3 million, or about 90 percent of total claimed costs
(see Table 2).

                   Table 2. Termination and Equitable Adjustment Claims

                Type of Claim                    Claimed Costs               Questioned Costs
             Termination                               $1,039,079                     $812,171
             Equitable Adjustment                       2,639,618                    2,514,232
             Total                                     $3,678,697                   $3,326,403
            Source: OIG analysis 2009-2012.

In FY 2009, the DCAA reviewed two contractor termination claims totaling $1,039,079,
resulting in questioned costs totaling $812,171.

   One contractor submitted a termination claim for $702,230, $475,322 of which
    DCAA questioned based on the comingling of terminated proposal costs,
    unallowable fee costs, and disallowed subcontractor estimated-to-complete costs
    included by the prime contractor. The Postal Service terminated this contract for
    convenience8 and settled the questioned cost of $475,322.

   Another contractor submitted a termination claim for $336,849 and the entire claim
    was questioned due to inadequate cost and pricing data. The Postal Service was
    able to negotiate a lower price of $73,475, a reduction of about 78 percent of the
    claimed cost.




7
  An equitable adjustment is a contract adjustment made pursuant to a changes clause and intended to compensate
a supplier for expenses incurred due to actions of the Postal Service or to compensate the Postal Service for contract
reductions.
8
  The Postal Service's SP&P, Section 5-13.1, Termination for Convenience, states that a contract may be terminated
for convenience when it is in the Postal Service's best interest; for example, when the products or services supplied
under the contract are no longer required or the contract becomes unnecessary for some other reason. The supplier
is entitled to a percentage of the contract price, as well as any reasonable charges that directly result from the
termination.

                                                          4
Trends and Systemic Issues in Defense Contract Audit                                                 SM-MA-13-002
 Agency Audit Work for Fiscal Years 2009-2012


DCAA identified $2,514,232 in questioned costs for one of the three contractors’
equitable adjustment claims:

    A contractor submitted an equitable adjustment that resulted in $2,514,232 in
     questioned costs out of $2,639,618 total claimed costs. The questioned costs were
     primarily due to excessive labor costs claimed for holiday staffing, nonconforming
     mail, and excess staffing due to truck schedule changes. The DCAA report was a
     useful tool for the CO to use during claims negotiations and for substantially
     reducing contract settlement amounts. As a result, the CO negotiated the claim
     down to $16,562.

    The other two reports did not cite questioned costs.

It is important for the Postal Service to review termination and equitable adjustment
claims. Audits of these claims can identify significant questionable costs submitted by
the contractor and are effective tools to help Postal Service COs negotiate lower
contract settlement costs. A recent OIG report9 stated that equitable adjustment claims
generally receive reviews and oversight consistent with current Postal Service policies
and procedures. However, of 24 equitable adjustment claims reviewed during that audit
only one received DCAA review. The DCAA audit of the equitable adjustment claim
cited above shows the importance of these audits and the potential for similar cost
reductions from other DCAA audits.

Reviews of Systems, Financial Capability, and Labor Floor Checks

Seven of 18 DCAA reviews uncovered weaknesses in contractors’ accounting systems,
estimating system, financial capability, and labor floor checks10 (see Table 3). COs were
proactive in requesting DCAA audits of suppliers’ accounting systems and financial
capability for some new suppliers or if there were questions concerning financial
solvency.

         Table 3. Reviews of Systems, Financial Capability, and Floor Checks

                                                                            Number
                                                 Number                  Unacceptable
                 Type of Review                 Reviewed                or Unfavorable 11
               Accounting System                               3                                 2
               Estimating System                               1                                 1
               Financial Capability                           12                                 2
               Labor Floor Checks                              2                                 2
               Total                                          18                                 7
              Source: OIG Analysis 2009-2012.


9
  Oversight of Equitable Adjustments (Report Number CA-AR-12-006, dated September 28, 2012).
10
   Labor floor checks help validate direct and indirect labor costs allocated to Postal Service contracts.
11
   ‘Unacceptable’ refers to weaknesses in contractor accounting systems, estimating systems, and timekeeping (labor
floor checks). ‘Unfavorable’ refers to negative financial statement trends (contractor financial capability).

                                                        5
Trends and Systemic Issues in Defense Contract Audit                                                   SM-MA-13-002
 Agency Audit Work for Fiscal Years 2009-2012


The DCAA reports disclosed that two of the three accounting systems reviewed were
unacceptable for accumulating and segregating costs on Postal Service contracts. One
accounting system review was initiated prior to awarding a fixed-price contract.
According to a CO, these system reviews are often initiated as a general audit tool and
are not contract-specific. However, conducting accounting system audits before contract
award can help avoid problems that contractors may have in properly accumulating and
segregating contract costs. In addition, these audits provide Postal Service COs with
valuable insight into contractors’ business practices.

DCAA performed an audit of the contractor’s cost estimating system under the
Information Technology Preferred Portfolio Partnering program. 12 This audit disclosed
several weaknesses in the system, including not:

    Using historical experience.
    Monitoring and tracking estimates against actual costs.
    Subjecting estimates to periodic internal reviews.
    Requiring periodic training on the Estimating Manual.
    Reviewing management documentation sufficiently.
    Reviewing subcontractor costs adequately.
    Documenting policies, procedures, and practices.

Weaknesses in contractor estimating systems can result in estimates of total cost or
major cost elements that are unacceptable as a basis for negotiating fair and
reasonable prices. As a result, the OIG initiated an audit13 to follow-up on DCAA
recommendations.

Two of 12 financial capability audits found indications of significant unfavorable key
financial statement trends. DCAA conducts financial capability audits to determine
whether the contractor is financially capable of performing on contracts. Based on the
two audits with unfavorable trends, the CO continued to monitor the contractors’
financial performance. Additionally:

    The CO stated that one contractor ceased operations in February 2011 with no open
     issues or unfinished Postal Service work.

    The CO met with another contractor who pointed out that the audit did not provide
     key financial ratios. As a result, the CO felt the findings did not accurately reflect the
     supplier’s financial capability. However, examination of the contractor’s financial
     capability disclosed that its cash flow projections were calculated on an aggressive
     estimate of contracts to be awarded based on its current outstanding proposals.
     DCAA was unable to validate the contractor’s estimate of the contracts to be
     awarded; therefore, it recommended that the CO continue to monitor the contractor’s
12
   This program awarded long-term professional service ordering agreements to enterprise-wide information
technology providers. The program did not provide for competition among suppliers when task orders were issued;
rather, suppliers were competitively awarded ordering agreements for specific portfolios and received all task orders
for those portfolios.
13
   Accenture Federal Services Contracts (Report Number SM-MA-13-001, dated December 17, 2012).

                                                          6
Trends and Systemic Issues in Defense Contract Audit                               SM-MA-13-002
 Agency Audit Work for Fiscal Years 2009-2012


       financial condition by requiring it to submit periodic status reports showing updated
       cash flow projections and any efforts to obtain new financing or reduce costs.

These audits are important in identifying contractors’ financial difficulties that can disrupt
production schedules, cause inefficient use of resources, and result in contract
nonperformance.

Both labor floor check reviews disclosed timekeeping weaknesses. Employees did not
always complete timesheets on a daily basis and payroll records did not reconcile to
timesheets. Weaknesses in contractors’ timekeeping systems greatly increase the risk
of labor mischarging.

The Postal Service's SP&P 14 state that supplier capability is evaluated to determine its
ability to perform upon award of a contract and should be used as a snapshot of the
quality and reliability of that performance. It is critical that the Postal Service continue to
review contractors' accounting and estimating systems and perform financial capability
and labor floor check reviews to help identify contractors who:

      Are unable to accurately estimate proposal costs.
      Cannot segregate and identify costs to appropriate Postal Service contracts.
      Are experiencing financial difficulties.
      Have weaknesses in their timekeeping systems.

Recommendation

We recommend the vice president, Supply Management:

1. Emphasize to contracting officials the importance of requesting Defense Contract
   Audit Agency audits to support decisions in awarding and managing contracts.

Management’s Comments

Management agreed with our findings and recommendation and stated that they will
ensure that contracting officials are knowledgeable about the availability and capabilities
of DCAA as a resource. Management further stated that they appreciate the assistance
the OIG provided in updating the forms and processes for using DCAA and expect
required actions to be completed in March 2013. Management believes these DCAA
audits add value to the purchasing process; however, they expressed concern
regarding the OIG’s request to revise the original 45-day completion time for DCAA
audits to 90 days. Management believes this significantly increases their procurement
timelines and hinders efforts to streamline the time to award a contract. See Appendix C
for management’s comments in their entirety.




14
     SP&P, Section 2-22.1.2, Supplier Capability.

                                                    7
Trends and Systemic Issues in Defense Contract Audit                          SM-MA-13-002
 Agency Audit Work for Fiscal Years 2009-2012


Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
corrective actions should resolve the issues identified in the report. During coordination
with Postal Service officials to update the process for requesting DCAA audits, we
proposed revising the original 45-day completion time for DCAA audits to 90 days.
Regarding management’s concern that the extra time would significantly impact
procurement timeliness, we believe that 90 days is more realistic and allows DCAA to
perform thorough reviews with sufficient testing. The average project time for DCAA
reviews is currently about 100 days. In addition, our efforts to enhance coordination and
timeliness of DCAA audits should assist in reducing project time. Finally, Postal Service
officials could help address timeliness concerns by submitting requests for DCAA audits
with sufficient advance notice to meet their contracting deadlines.

We consider the recommendation significant, and therefore require OIG concurrence
before closure. Consequently, the OIG requests written confirmation when the
corrective action is completed. This recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




                                                   8
Trends and Systemic Issues in Defense Contract Audit                          SM-MA-13-002
 Agency Audit Work for Fiscal Years 2009-2012


                             Appendix A: Additional Information

Background

In FY 1999, the OIG entered into an agreement with the DCAA to conduct contract
audits on its behalf. The OIG initiates and provides funding for DCAA audits at the
request of Postal Service contracting officials and when the OIG identifies a need. The
OIG’s partnership with the DCAA benefits Postal Service contracting officials by arming
them with audit reports that help them make informed choices when negotiating
contracts and claims and conducting other business related to contracts.

Objective, Scope, and Methodology

Our objective was to identify contracting trends and issues found in DCAA audit reports
that presented opportunities for improvement and future benefits for Postal Service
officials. To accomplish our objective, we analyzed 58 DCAA audit reports issued during
FYs 2009-2012. Our analysis consisted of audits reporting $185.9 million in unallowable
and unsupported costs, including price proposals, accounting systems, termination and
equitable adjustment claims, financial capability reviews, labor floor checks, incurred
costs, the purchasing system, rate proposals; and special request audits. After
categorizing the audits (see Appendix B), we reviewed each audit report to identify and
provide a summary of similar significant issues.

We conducted this review from August 2012 through March 2013 in accordance with
the Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on December 19, 2012.

We determined that the data reviewed were sufficiently reliable for the purposes for this
report since this report summarizes prior DCAA reports.

Prior Audit Coverage

Our report titled Trends and Systemic Issues in Defense Contract Audit Agency Audit
Work for Fiscal Years 2007 and 2008 (Report Number CA-MA-09-001, dated October 6,
2008) identified trends and systemic issues in DCAA audits of contractors’ proposals,
systems, and claims. Proposal audits disclosed a trend of quality concerns and high
unallowable costs related to subcontracting issues. Other audits disclosed unacceptable
contractor accounting systems and unallowable costs related to contractor claims. We
recommended management direct COs to emphasize to contractors the significance of
the Postal Service’s reliance on the quality of subcontract proposals and the integrity of
material vendor quotations and request audits of significant claims filed against the
Postal Service. We also recommended that management re-emphasize to COs the
requirement to and significant benefits of requesting an accounting system audit of
prospective contractors before awarding them a contract. Management agreed with the
findings and recommendations.


                                                   9
Trends and Systemic Issues in Defense Contract Audit                                              SM-MA-13-002
 Agency Audit Work for Fiscal Years 2009-2012


  Appendix B: Defense Contract Audit Agency Audit Reports Issued from Fiscal
                               Years 2009-2012


                                  Number      Unallowable and
 Fiscal                             of         Unsupported
  Year       Type of Report       Reports          Costs                             Comments
                                                                     Systems found unacceptable for properly
                                                                     accounting for costs under Postal Service
          Accounting Systems         2                               contracts.
                                                                     Unallowable and unsupported costs due to
                                                                     inadequate cost or pricing data; and
                                                                     unallowable costs for labor, staffing,
                                                                     transportation schedule, overhead, and
          Equitable Adjustment       3         $        2,514,232    general and administration costs.
          Incurred Costs             3
          Performance (Special
  2009    Request Audit)             3
                                                                     Unallowable and unsupported costs due to
                                                                     inadequate cost or pricing data and prime
                                                                     contractors not considering reductions to
          Price Proposals            8                 26,086,161    subcontract proposed costs.
          Purchasing System          1
          Rates Proposal             1
                                                                     Unallowable costs due to misclassification of
                                                                     comingled new solution and stop work costs,
                                                                     unallowable fees, and settlement claims of
          Termination                2                   812,171     subcontractors.


          Accounting Systems         1
          Financial Capability       4                               Indications of unfavorable financial trends.
          Labor Floor Check          1                               Disclosed weakness in timekeeping system.
  2010    Performance (Special                                       Unsupported unallowable costs due to job
          Request Audit)             5                   503,586     qualifications.
                                                                     Unallowable and unsupported costs due to
          Price Proposals            1                     8,320     other direct costs.
          Rates Proposal             1


          Financial Capability       2                                Indications unfavorable financial trends.
                                                                      Disclosed weaknesses in timekeeping
          Labor Floor Check          1                                system.
          Incurred Costs             2
  2011    Performance (Special                                        Unallowable costs due to labor, overhead
          Request Audit)             2                    866,886     expenses, material, and subcontractors.
                                                                      Unallowable and unsupported costs due to
                                                                      lack of supporting documentation,
                                                                      inadequate cost or pricing data, and
          Price Proposals            4                 155,110,218    unsupported direct material costs.




                                                   10
Trends and Systemic Issues in Defense Contract Audit                                                SM-MA-13-002
 Agency Audit Work for Fiscal Years 2009-2012



                                     Number
     Fiscal                            of         Unallowable and
      Year       Type of Report      Reports     Unsupported Costs                        Comments
                                                                          Estimating system disclosed several
              Estimating System         1                                 weaknesses.

              Financial Capability      6
     2012
              Incurred Costs            2                       3,895     Unallowable costs due to timekeeping.
                                15
              Price Proposals           1
              Rates Proposal            1
                                                                     16
 Total                                 58             $185,905,469
Source: OIG analysis.




15
   Of the 14 price proposal reports issued between FYs 2009 and 2012, two did not report unallowable or
unsupported costs, including one report issued in 2012 and one issued in 2011.
16
   Total unallowable and unsupported costs for all DCAA audits issued during FYs 2009-2012. This includes
unallowable and unsupported costs totaling $181,204,699 for price proposal reports issued during FYs 2009-2011.

                                                       11
Trends and Systemic Issues in Defense Contract Audit           SM-MA-13-002
 Agency Audit Work for Fiscal Years 2009-2012




                           Appendix C: Management's Comments




                                                  12
Trends and Systemic Issues in Defense Contract Audit   SM-MA-13-002
 Agency Audit Work for Fiscal Years 2009-2012




                                                  13
